                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




         We received an allegation that an NSF official1had exceeded hisiher authority in providing advice to
         an a ~ a r d e e .In
                            ~ our consultations wit the Federal offices that would pursue such allegations, we
         were informed that the behavior was unprofessional and, while it did exceed the understood
         authorities of that position, it was not sufficiently egregious to prosecute. Therefore this file is




NSF OIG Fonn 2 (11102)                                                                                           1
